                                 UNITED STATES DEPARTMENT OF EDUCATION
                                                 OFFICE OF INSPECTOR GENERAL

                                                                                                                        AUDIT SERVICES



                                                                        September 30, 2014

                                                                                                       Control Number
                                                                                                       ED-OIG/A06N0002
Lynn B. Mahaffie
Acting Assistant Secretary
Office of Postsecondary Education
U.S. Department of Education
1990 K Street NW, Room 8046
Washington, D.C. 20006

Dear Ms. Mahaffie:

This final audit report, “Office of Postsecondary Education Duplication of Effort with
Discretionary Grants,” presents the results of our audit. The objectives of the audit were to
determine whether (1) the Office of Postsecondary Education’s internal controls were adequate
for evaluating grantees for duplication of services, (2) the Talent Search, Upward Bound, and
Gaining Early Awareness and Readiness For Undergraduate Programs (GEAR UP) programs
resulted in a duplication of services provided by selected grantees, and (3) selected grantees
experienced administrative burdens or inefficiencies as a result of administering multiple
programs with similar objectives. Our review covered the Office of Postsecondary Education
(OPE) within the U.S. Department of Education (Department) for fiscal years (FY)
2009 through 2014. We also reviewed records of two grantees for FYs 2009 through 2011. In
addition, we performed audit work related to updates to OPE’s policies and procedures through
June 11, 2014. The two grantees were Berea College (Berea) and Eastern New Mexico
University-Roswell (ENMUR).

In its response to the draft of this report, OPE did not specifically state its concurrence or its non-
concurrence with either of the two findings. OPE stated that it would agree with
recommendations 1.1 and 1.2 if they were modified to use the term “minimize” instead of
“reduce” duplication. In response to OPE’s comments, we changed the term “reduce” to the
term “minimize” throughout the finding and recommendations.1 For Finding No. 2, OPE agreed
with the recommendation. In addition, in a section of its response titled “Additional Concerns,”
OPE referred to the years audited and stated that it is important to note that the Talent Search and
Upward Bound regulatory requirements to minimize duplication of services to participants were
effective for new awards under Talent Search beginning with the 2011-2012 year, and Upward
Bound beginning with the 2012-2013 year. OIG noted the issuance date for these regulations in

1
  We previously used the term “reduce” to broadly incorporate the various statutory and regulatory provisions
concerning duplication across programs. The term also accounted for the Government Accountability Office’s
(GAO) work regarding reduction of duplication in Federal programs. While “minimize” more closely reflects the
Department’s regulations for Talent Search and Upward Bound, the Office of Inspector General’s (OIG)
incorporation of that term is not specific or limited to those regulations. For example, as was the case regarding our
previous use of “reduce,” we use the term “minimize duplication” to generally cover the statutory requirements
under GEAR UP to “not duplicate services already provided” and to “avoid duplication.”
    The Department of Education's mission is to promote student achievement and preparation for global competitiveness by fostering educational
                                                      excellence and ensuring equal access.
Final Report
ED-OIG/A06N0002                                                                                        Page 2 of 25

footnote 3 below, and acknowledges the later effective date of the minimization requirement in
the regulations. However, OIG also notes that while our audit of the two grantees only covered
FYs 2009 through 2011, the cited Talent Search and Upward Bound requirements to minimize
duplication were applicable to our review of OPE’s internal controls for evaluating grantees for
duplication of services, which covered updates to policies and procedures through
June 11, 2014.2 Furthermore, and notwithstanding the effective date of the final Talent Search
and Upward Bound regulations, grantees were subject to statutory requirements to ensure
coordination among the Federal TRIO Programs (TRIO) and other programs for disadvantaged
students, as well as requirements to avoid duplication of GEAR UP services with other Federal
programs, that were in effect throughout the scope of our audit.

Finally, OPE requested that OIG provide OPE with a list of the 27 state grantees participating in
all three programs reviewed and describe how OIG determined that these grantees participated in
all three programs. As stated in the Objectives, Scope, and Methodology section of the report,
we obtained grantee data from the Federal Audit Clearinghouse. We will provide, under separate
cover to OPE, a list of the 27 state grantees participating in all three programs. OPE’s comments
are summarized at the end of each finding, along with the OIG’s response. The full text of
OPE’s comments to the draft report is included as Attachment 2 to the report.




                                              BACKGROUND


OPE is responsible for formulating Federal postsecondary education policy and administering
programs that address critical national needs in support of its mission to increase access to
quality postsecondary education. OPE administers more than 60 programs that support its
mission of increasing access to quality postsecondary education, including the Talent Search,
Upward Bound, and GEAR UP programs. These and other OPE programs help low-income
individuals, first-generation college students, and individuals with disabilities progress through
the academic pipeline from middle school to postbaccalaureate programs. OPE has performed
limited on-site monitoring of these programs, and has not included procedures to review for
duplication of services between the programs. Eight OPE program staff oversee the Talent
Search and GEAR UP programs, and 14 staff oversee the Upward Bound program.

Talent Search, Upward Bound, and GEAR UP

The Talent Search program serves students from disadvantaged backgrounds that have the
potential to succeed in higher education. The program provides services such as academic,
career, and financial counseling to its participants and encourages them to graduate from high
school and continue on to and complete their postsecondary education. The program publicizes
the availability of financial aid and assists participants with the postsecondary application
process. The Talent Search program also encourages persons who have not completed education

2
  Although OPE referenced the tables in the report as indicating that five years were audited regarding the grantees,
the tables in question were included in the Background section of the report to provide more current information to
the reader about the grant award amounts.
Final Report
ED-OIG/A06N0002                                                                      Page 3 of 25

programs at the secondary or postsecondary level to enter or reenter and complete postsecondary
education. The Talent Search program is part of TRIO.

The Upward Bound program serves both high school students from low-income families and
high school students from families in which neither parent holds a bachelor’s degree. The
program provides services such as tutoring, counseling, mentoring, cultural enrichment, and
work-study programs. The program provides opportunities for participants to succeed in their
precollege performance and ultimately in their higher education pursuits. The Upward Bound
program is designed to increase the rate at which participants complete secondary education and
enroll in and graduate from institutions of postsecondary education. The Upward Bound
program is also part of TRIO.

The GEAR UP program serves cohorts of students from at least the seventh grade through high
school at high-poverty middle and high schools. The GEAR UP program provides college
scholarships to low-income students, and also provides services such as tutoring and counseling.
The GEAR UP program is designed to increase the number of low-income students who are
prepared to enter and succeed in postsecondary education. The GEAR UP program is not a
TRIO program.

OPE administered Talent Search, Upward Bound, and GEAR UP grants on the basis of FYs that
began in the first year of a FY overlapping two years. For example, a FY 2009 grant started in
2009 and ended in 2010. OPE officials explained that the terms fiscal year, award year, program
year, budget period, project year, and reporting year all refer to the same period. On that basis,
this report primarily uses the term “fiscal year” for clarity. For FYs 2009 through 2013, the FYs
of the Talent Search and Upward Bound grants did not change for either Berea or ENMUR. The
only change, which applied to both schools, was for GEAR UP. For FYs 2009 and 2010, the
GEAR UP FY started on September 1. For FYs 2011 through 2013, the GEAR UP FY started
on September 26.

For the Talent Search, Upward Bound, and GEAR UP programs, the Department awarded the
following cumulative grant amounts for FYs 2009 through 2013:


                      Table 1 – Department Grant Award Amounts
Grant            2009            2010         2011         2012                         2013
Talent       $141,508,765   $141,646,643 $138,658,540 $135,968,652                  $128,116,544
Search
Upward       $257,423,132      $257,160,848     $248,839,758      $269,229,023      $249,857,649
Bound
GEAR         $313,212,000      $323,212,000     $302,816,154      $302,243,678      $286,434,520
  UP
 Total       $712,143,897      $722,019,491     $690,314,452      $707,441,353      $664,408,713
Final Report
ED-OIG/A06N0002                                                                                    Page 4 of 25

Duplication of Services

The Higher Education Act of 1965, as amended (HEA), and related Department regulations,3
require coordination between Federal programs, including Talent Search, Upward Bound, and
GEAR UP. These requirements are designed to minimize duplication and overlap of services
across these programs so that more students can be served.

For our audit, we used the GAO definitions of overlap and duplication that GAO cited in its
report titled “Opportunities to Reduce Fragmentation, Overlap, and Duplication and Achieve
Other Financial Benefits” (dated April 9, 2013). GAO defined overlap as when multiple
programs have similar goals, engage in similar activities or strategies to achieve them, or target
similar beneficiaries. GAO defined duplication as when two or more programs are engaged in
the same activities or provide the same services to the same beneficiaries.

Annual Performance Reports Process

Grantees were required to submit Annual Performance Reports (APRs) to OPE. The APRs for
the Talent Search, Upward Bound, and GEAR UP programs included information such as the
program objectives and the number of participants served by the grants. The APRs for all three
grants included the number of students served. In addition, the GEAR UP APRs included a
description of the types of services provided, and the Upward Bound APRs included a list of
students served.

The APRs were used by OPE to evaluate grantees’ progress, including to determine whether
grantees would receive continued funding in the upcoming year. According to
34 Code of Federal Regulations (C.F.R.) § 75.253(a), the Secretary of Education (Secretary) may
make a continuation award for a budget period after the first budget period of an approved
multi-year project if the recipient has made substantial progress toward meeting the objectives in
its approved application or if the continuation of the project is in the best interest of the Federal
government. OPE determined substantial progress by evaluating information such as (1) the
number of students expected to be served during the award year, (2) the number of students
actually served by the grants during the award year, and (3) whether other program objectives
were met.

Grantees

For FYs 2009 through 2011 combined, we identified 304 grantees that expended funds from two
or more grant programs, and determined that 86 of the 304 grantees expended funds from all
three grant programs. Of those 86 grantees, 27 were state agencies with multiple sub-grantees,
and 59 were individual grantees such as colleges and universities. Because we wanted to
identify grant expenditures of specific grantees such as colleges and universities, we separated
the state agencies from the other grantees, and defined our universe as those 59 grantees. From
that universe, we judgmentally selected the two schools described below.

3
 Unless otherwise specified, references in this report to the HEA are to the HEA as amended as of
January 27, 1998; and, references to 34 C.F.R. Parts 643, 645, and 694 are to the Talent Search, Upward Bound and
GEAR UP regulations as amended as of October 26, 2010. References to Education Department General
Administrative Regulations (EDGAR) are to regulations amended as of July 1, 2009.
Final Report
ED-OIG/A06N0002                                                                              Page 5 of 25

Berea College

Berea College (Berea) is a four-year private college located in Berea, Kentucky, offering
bachelor’s degrees in 32 majors. Berea had an enrollment of 1,658 students in the fall of 2012.
The Department awarded Talent Search, Upward Bound, and GEAR UP grants to Berea for FYs
2009 through 2013, as shown in Table 2 below. Berea provided GEAR UP services under the
cohort approach.

                               Table 2 – Berea Grant Award Amounts
      Grant               2009           2010          2011        2012                         2013
     Talent             $351,467      $351,467       $351,467    $351,467                     $333,085
     Search
     Upward             $474,989            $474,989              $460,264      $474,989         $04
     Bound
    GEAR UP            $2,859,916          $2,859,889            $10,672,000   $10,672,000   $10,672,000
      Total            $3,686,372          $3,686,345            $11,483,731   $11,498,456   $11,005,085

Eastern New Mexico University-Roswell

Eastern New Mexico University-Roswell (ENMUR) is a two-year public college located in
Roswell, New Mexico, offering associates degrees and certificates. ENMUR had an enrollment
of 4,193 students in the fall of 2012. The Department awarded Talent Search, Upward Bound,
and GEAR UP grants to ENMUR for FYs 2009 through 2013, as shown in Table 3 below.
ENMUR also provided GEAR UP services under the cohort approach.


                              Table 3 – ENMUR Grant Award Amounts
    Grant                  2009           2010       2011        2012                           2013
Talent Search            $304,593       $304,593  $304,593     $304,593                       $288,663
  Upward                 $296,327       $296,327  $287,141     $296,327                       $280,829
   Bound
 GEAR UP                $1,376,000          $1,200,000           $1,380,800    $1,380,800    $1,380,800
    Total               $1,976,920          $1,800,920           $1,972,534    $1,981,720    $1,950,292




                                              AUDIT RESULTS


We determined that OPE had not implemented adequate internal controls to provide assurance
that grantees minimized the duplication of services. We did not identify, based on our review of
student records, any duplication of services provided under the Talent Search, Upward Bound,
and GEAR UP programs. At the two schools we visited, we performed a 100 percent review of
student records for students receiving services from those three programs. For Berea, we did not
4
    Berea did not receive an Upward Bound grant for this year.
Final Report
ED-OIG/A06N0002                                                                       Page 6 of 25

identify any duplication of services for the audit period. For ENMUR, we did not identify any
duplication of services for FY 2011. However, we could not determine if duplication of services
occurred at ENMUR during FYs 2009 and 2010, because ENMUR did not maintain
documentation that would enable us to make that determination. We were informed by Berea
and ENMUR officials that they did not experience burdens or inefficiencies as a result of
administering multiple programs with similar objectives.

We received OPE’s comments on the findings and recommendations in the draft report. OPE did
not specifically state its concurrence or its non-concurrence with either of the two findings. OPE
stated that it agreed with recommendations 1.1 and 1.2 if they were modified to use the term
“minimize” instead of “reduce” duplication. In response to OPE’s comments, we changed the
term “reduce” to the term “minimize” throughout the finding and recommendations. For
Finding No. 2, OPE agreed with the recommendation. The comments are summarized at the end
of each finding, along with the OIG’s responses. The full text of OPE’s comments on the draft
report are included as Attachment 2 to this final report.


FINDING NO. 1 – OPE’s Oversight Process Provides No Assurance That Grantees
                     Minimize the Duplication of Services

OPE had not implemented adequate internal controls to provide assurance that grantees
minimized the duplication of services. OPE did not have adequate internal controls to ensure the
minimization of duplication of services between the three grant programs and other existing
Federal, state, and local early intervention programs, because it did not collect and evaluate
information on duplication of services. As such, OPE did not fulfill HEA and Departmental
requirements to ensure grantees minimized the duplication of services already provided to a
school or community.

For the Talent Search and Upward Bound programs, HEA Section 402A(c)(6) requires the
Secretary to encourage coordination between TRIO programs and other programs for
disadvantaged students. 34 C.F.R. §§ 643.11(b) and 645.21(a)(4) state that applicants must
include an assurance that the project will collaborate with other TRIO projects, GEAR UP
projects, or programs serving similar populations that are serving the same target schools or
target area in order to minimize the duplication of services and promote collaborations so that
more students can be served.

For the GEAR UP program, HEA Section 404B(b) states each eligible entity shall ensure that the
activities assisted under this chapter are, to the extent practicable, coordinated with, and
complement and enhance—(1) services under this chapter provided by other eligible entities
serving the same school district or State; and (2) related services under other Federal or non-
Federal programs. Also, HEA Section 404B(d) states that, where the Secretary requires that
GEAR UP services be provided to grade levels of students at participating schools, beginning not
later than seventh grade and continuing for that grade level of students through at least the
twelfth grade (the cohort approach), the Secretary shall, where applicable, ensure that the cohort
approach is done in coordination and collaboration with existing early intervention programs and
does not duplicate the services already provided to a school or community.
Final Report
ED-OIG/A06N0002                                                                       Page 7 of 25

In addition, 34 C.F.R. §§ 643.32(c)(5) and 645.43(c)(5) state that the Talent Search and Upward
Bound grantees are required to keep records, to the extent practicable, of any services the Talent
Search or Upward Bound participant receives during the project year [fiscal year] from another
TRIO program or another federally funded program that serves populations similar to those
served under the Talent Search and Upward Bound programs. These programs and the
GEAR UP programs are also subject to the Department’s general recordkeeping regulation at
34 C.F.R. §74.53 (b), which states that financial records, supporting documents, statistical
records, and all other records pertinent to an award shall be retained for a period of three years
from the date of submission of the final expenditure report. The regulation also states that, for
awards that are renewed quarterly or annually, the three-year record retention requirement is
three years from the date of the submission of the quarterly or annual financial report, as
authorized by the Secretary.

Office of Management and Budget Circular A-123, Management’s Responsibility for Internal
Control (dated December 21, 2004), states that management’s control activities include policies,
procedures and mechanisms to help ensure that agency objectives are met. In addition to having
these control activities in place, management should include periodic reviews, reconciliations, or
comparisons of data as part of the regular assigned duties of personnel. As part of its continuous
monitoring of internal control, management should also integrate periodic assessments that are
ingrained in the agency’s operations.

The Department’s Handbook for the Discretionary Grant Process (dated January 26, 2009)
includes the Department’s discretionary grant monitoring policy. It requires Department staff to
monitor each grantee to the extent appropriate to ensure that results are achieved in compliance
with grant requirements. We determined that the Department’s OPE did not have adequate
internal controls for evaluating grantees for duplication of services as required by the HEA,
OPE’s regulations, and non-regulatory guidance.

Specifically, OPE did not have procedures for evaluating grant applications or other
documentation, such as APRs, for duplication of services. OPE’s evaluation process for the
grant applications included reviewing items such as budget and personnel qualifications, but did
not include evaluation procedures to ensure coordination, collaboration, and duplication of
services between the three grant programs and other existing Federal, state, and local early
intervention programs. In the grant applications, OPE included a requirement that grantees
submit APRs, which OPE used to evaluate grantees’ administration of the grants. OPE officials
reviewed the APRs to determine that if a grantee made substantial progress, it would entitle the
grantee to continued funding for the upcoming fiscal year. OPE determined substantial progress
by evaluating information such as (1) the number of students expected to be served during the
award year and (2) the number of students actually served by the grants during the award year.
However, OPE officials did not review the APRs for the purpose of evaluating whether grantees
were duplicating services.

OPE’s directors of the Talent Search, Upward Bound, and GEAR UP programs stated that OPE
evaluated grant applications and APRs based upon each program’s regulatory requirements and
said that they had no requirement to evaluate grantee information to ensure coordination and
collaboration in regard to duplication of services. In June 2014, we confirmed with OPE
officials, including the director of student service, that OPE was not performing procedures to
Final Report
ED-OIG/A06N0002                                                                      Page 8 of 25

ensure coordination and collaboration among the programs or to evaluate for any duplication of
services, as required by the HEA.

Beginning with the FY 2011 Talent Search and the FY 2012 Upward Bound grant applications,
OPE included an assurance that requires the certifying official at the applicant institution to
certify that the project will collaborate with other Federal TRIO projects and GEAR UP to
minimize the duplication of services to participants. For those respective FYs, OPE also revised
its Talent Search and Upward Bound APRs to require reporting on the requirement to collaborate
and minimize the duplication of services to participants. OPE will revise its GEAR UP APR in
the fall or winter of 2015. Therefore, beginning in 2016, GEAR UP grantees will also report on
efforts made to minimize duplication of services.

OPE’s monitoring process and procedures did not include a review for coordination,
collaboration, and duplication of services between the three grant programs and other existing
Federal, state, and local early intervention programs. On March 21, 2012, OPE’s director of
student service issued a memorandum on the subject “Coordination with Other Programs for
Disadvantaged Students.” The memorandum was distributed to the Talent Search, Upward
Bound, and GEAR UP project directors, reminding them of the need for coordination with other
programs in order to minimize duplication of services. However, OPE’s monitoring process did
not include a review for this type of coordination. In addition, OPE did not factor potential
duplication of services into its risk factors for selecting grantees for performance monitoring.
OPE did identify some common examples of grantee monitoring problems and concerns,
including making excessive drawdowns, drawing down few or no funds, or experiencing
frequent turnover in key personnel working on the grants; but it did not identify duplication of
services.

OPE’s monitoring guides for Talent Search, Upward Bound, and GEAR UP included areas such
as administration and management, fiscal management, and program administration; however,
the guides did not include any procedures to determine if an eligible entity was coordinating
services between the three grant programs to minimize duplication of services. For the three
grant programs combined, OPE provided four program review reports, which we reviewed to
determine whether OPE reviewed for duplication of services during its on-site program reviews.
Based upon those reports, OPE reviewed items such as fiscal controls, participant eligibility, and
project administration, but did not review for duplication of services between the three grant
programs. In June 2014, we held a discussion with OPE officials regarding internal controls
over coordination of program services. The OPE director of student service responded that OPE
will implement a number of monitoring activities to assure grantee compliance with the
requirement to collaborate in minimizing the duplication of services to participants. OPE will
also update its site visit guides to ensure that this issue is assessed when staff members conduct
site visits of OPE’s pre-college programs.

OPE did not have adequate internal controls to ensure duplication of services did not exist
between the three grant programs and other existing Federal, state, and local early intervention
programs because it did not collect and evaluate information on duplication of services. As such,
OPE did not fulfill HEA and Departmental requirements to ensure grantees do not duplicate the
services already provided to a school or community.
Final Report
ED-OIG/A06N0002                                                                          Page 9 of 25

Recommendations

We recommend that the Acting Assistant Secretary for Postsecondary Education—

1.1 Ensure that grantees provide information that would enable OPE to assess their efforts to
    coordinate, collaborate, and minimize duplication with other similar programs.

1.2 Implement a process for OPE to assess whether or not grantees are meeting their
    obligations to coordinate, collaborate, and minimize duplication of services for all three
    grant programs (Talent Search, Upward Bound, and GEAR UP).


OPE’s Comments

OPE did not specifically state either its concurrence or its non-concurrence with Finding No. 1
and stated that it agreed with both recommendations if they were modified to use the term
“minimize” instead of “reduce” duplication.

For Recommendation 1.1, OPE stated that it has already taken steps to minimize duplication.
Referring to the enactment of the Higher Education Opportunity Act of 2008 (HEOA),
mandatory negotiated rulemaking and the publication of draft and final regulations, OPE stated
that it has taken and continues to take a number of actions to address minimizing duplication of
services to those participating in Talent Search, Upward Bound, and other federally funded
college access programs. Those actions include publicizing the new requirement to minimize the
duplication of services to participants and amending Talent Search and Upward Bound program
funding applications to address minimizing the duplication of services to participants. In
addition, the 2011 Talent Search grant application and the 2012 Upward Bound grant application
were amended to require the certifying official of the applicant institution to state that the project
would collaborate with other Federal TRIO projects and GEAR UP to minimize the duplication
of services. Also, APRs for Talent Search and Upward Bound were revised to require reporting
on the number of participants served by other federally funded college access programs. Finally,
during the Upward Bound APR clearance process the requirement to minimize the duplication of
services was publicized through meetings with the grantee community and through 30- and
60-day comment periods. To address OIG’s finding for GEAR UP, OPE stated that it will
update the GEAR UP APR to include the collection of data on participants served by another
federally funded access program.

For Recommendation 1.2, OPE stated that it will perform the following actions in establishing
internal controls to appropriately monitor the requirements as they apply to Talent Search,
Upward Bound, and GEAR UP:

      Update site review guides for Talent Search, Upward Bound, and GEAR UP;
      Monitor Talent Search and Upward Bound grantees to ensure they comply with the
       requirement to minimize the duplication of services to participants;
      Update the OMB Circular A-133 Compliance Supplement for the Federal TRIO
       Programs Cluster by adding an additional audit requirement to review the issue of
       participants served by another federally funded college access program;
Final Report
ED-OIG/A06N0002                                                                      Page 10 of 25

      Assess APR data on participants served by another federally funded college access
       program to inform our monitoring of minimizing duplication; and
      Develop a plan for oversight of grantee compliance with duplication of services
       requirements. The plan will identify additional strategies for promoting grantee
       compliance with these requirements.

OIG Response

In response to OPE’s comments, we changed the term “reduce” to the term “minimize”
throughout the finding and recommendations. OPE’s planned corrective actions, if properly
implemented, are responsive to the finding and recommendations.


FINDING NO. 2 –ENMUR Did Not Maintain Sufficient Supporting Documentation To
                      Assess Duplication for FYs 2009 and 2010 GEAR UP Program

For FY 2011, ENMUR maintained adequate, reliable, and complete documentation to support a
duplication assessment. However, for FYs 2009 and 2010, ENMUR’s GEAR UP documentation
did not support a duplication assessment, because the GEAR UP records did not support the
reported types of services provided, number of students served, or certification of APRs.

Insufficient GEAR UP Information to Determine Duplication of Services across Programs

For FYs 2009 and 2010, ENMUR’s GEAR UP documentation did not support the services
rendered and the dates of the services for the number of students reported as served. For
FY 2011, ENMUR implemented a new software system that recorded a description of the
services and the dates of the services. For FY 2011, we tested 100 percent of the student records
for students having received services from multiple programs and did not identify any
duplication of services.

Unreliable APR Data

For FYs 2009 through 2011, the ENMUR GEAR UP director submitted APRs to OPE which
included data such as the total number of students served by the grants and the specific services
(such as tutoring) provided to the students. We reviewed ENMUR’s supporting documentation
for those reported items, and concluded that only the FY 2011 documentation was sufficient.
The documentation for FYs 2009 and 2010 was not sufficient because it either differed from the
information reported to OPE in the APRs or was unavailable. The school’s documentation
included student names, but did not include a description of the services received or the dates of
the services. Also, the FY 2009 GEAR UP APR stated that the school served 1,500 students,
whereas the school’s documentation totaled 1,591 students. For the same year, the GEAR UP
APR stated that ENMUR provided tutoring services to 592 students, but the school’s
documentation showed that 488 students received tutoring services. The school’s documentation
included student names, but did not identify the grade levels of the students served or the dates of
the services, and did not include a description of the services provided. The discrepancies in
both the total number of students served and the number of students receiving tutoring services
demonstrate that the school’s records were unreliable. For both FY 2009 and FY 2010, the
Final Report
ED-OIG/A06N0002                                                                       Page 11 of 25

ENMUR GEAR UP director stated that he was unable to provide an accurate or supportable list
for the students reported as served by the GEAR UP program.

Unreliable APR Certification

For FYs 2009 through 2011, the ENMUR GEAR UP director completed APR certification
statements that the data submitted to OPE were complete and accurate. Based on our audit
testing, the FY 2011 certification was reliable. However, we concluded that the APR
certifications for FYs 2009 and 2010 were unreliable because ENMUR’s documentation did not
support the total number of students reported as served by the grant, the services rendered, or the
dates of the services rendered.

34 C.F.R. § 74.53 (b) states that financial records, supporting documents, statistical records, and
all other records pertinent to an award shall be retained for a period of three years from the date
of submission of the final expenditure report. The final expenditure report is submitted after all
budget periods within a multiple-year performance period have been completed.

Per the GEAR UP APRs for FYs 2009 and 2010, grantees were required to certify that, to the
best of their knowledge, the information reported was accurate and complete. The ENMUR
GEAR UP director stated that the data analyst responsible for tracking the FY 2009 and FY 2010
GEAR UP student records no longer worked for ENMUR and that the records maintained by the
data analyst were incomplete.

Per 34 C.F.R. §75.253 (a), the Secretary may make a continuation award for a budget period
after the first budget period of an approved multi-year project if the recipient has made
substantial progress toward meeting the objectives in its approved application or if the
continuation of the project is in the best interest of the Federal government. OPE makes
substantial progress determinations for grantees by reviewing information reported in the APRs.
We reviewed substantial progress assessment documentation prepared by OPE for ENMUR’s
Talent Search, Upward Bound, and GEAR UP projects. OPE determined that ENMUR made
substantial progress and was eligible to receive non-competing continuation grant awards for the
succeeding project years. However, based on the unreliability of ENMUR’s APR certifications
for FYs 2009 and 2010, we concluded that OPE’s substantial progress determinations might have
been based on inaccurate information. As a result, we concluded that the Department may have
awarded grant funds to ENMUR in excess of what the school should have received.

Recommendation

We recommend that the Acting Assistant Secretary for Postsecondary Education—

2.1 Review ENMUR’s GEAR UP APR data for FYs 2009 and 2010 and determine whether
    funds should be recovered.
Final Report
ED-OIG/A06N0002                                                                      Page 12 of 25



OPE’s Comments

OPE did not specifically state either its concurrence or its non-concurrence with Finding No. 2
but did agree with the recommendation. OPE acknowledged that, in 2011, the grantee
implemented a new software system that records a description of services provided, including the
dates of service. OPE staff followed up with the grantee’s Project Director and received a
written response citing other quality assurance measures that have been put into place to ensure
that ENMUR tracks adequate, reliable and complete documentation of services. In addition,
OPE staff reviewed ENMUR’s GEAR UP APR data for FY 2009 and FY 2010. OPE stated that
it requested and received an abundant amount of supporting documentation from ENMUR’s
GEAR UP project for those two years. Based on this documentation, OPE’s Acting Assistant
Secretary determined that ENMUR has taken appropriate corrective actions and that OPE will
not seek to recover GEAR UP funds.

OIG Response

OPE’s planned corrective actions, if properly implemented, are responsive to the finding and
recommendation.




                                           OTHER MATTERS


For duplication of services at target schools, which are schools that were served by the grants, we
noted that OPE collected data on the target schools for all three grant programs through the APR.
However, only Talent Search and Upward Bound programs currently collect a target school’s
unique identifier, known as the National Center for Education Statistics (NCES) identification
number. The NCES identification number is a 12-digit number used to identify a school. OPE
began collecting the GEAR UP target school NCES identification numbers for all of its grantees
during FY 2012.

To assess the reliability of the NCES identification numbers currently reported for Talent Search
(460 grantee awards) and Upward Bound (1,052 grantee awards), we compared the reported
target school NCES identification numbers to a list of valid school NCES identification numbers
selected from the Common Core of Data (CCD).5 The CCD is collected annually by the
Department’s NCES, which includes fiscal and non-fiscal data about all public schools, public
school districts and state education agencies in the United States.

We performed this analysis for FY 2011, and determined that some of the reported NCES school
identification numbers for Talent Search and Upward Bound did not match NCES school
identification numbers from the CCD. Specifically, for Talent Search, we identified 4,445
unique NCES school identification numbers. However, 227 (5.1 percent) of those NCES school

5
    The Common Core of Data can be reviewed at https://nces.ed.gov/ccd/.
Final Report
ED-OIG/A06N0002                                                                        Page 13 of 25

identification numbers did not match a school identifier from the CCD. For the Upward Bound
program, we identified 8,487 unique NCES school identification numbers and found 1,601
(18.9 percent) of those NCES school identification number did not match a school identifier
from the CCD.

Matching the target schools’ NCES school identification numbers across the three grant
programs could be one method to help OPE identify potential duplication of services at target
schools, and we suggest that OPE take steps to implement a preventive control to ensure that
schools are submitting accurate NCES school identification numbers.

OPE’s Comments

OPE stated that it will give full consideration to OIG’s suggestions as it further assesses,
develops and refines its internal control processes.




                  OBJECTIVES, SCOPE, AND METHODOLOGY


The objectives of the audit were to determine whether (1) OPE’s internal controls were adequate
for evaluating grantees for duplication of services, (2) the Talent Search, Upward Bound, and
GEAR UP programs resulted in a duplication of services provided by selected grantees, and
(3) selected grantees experienced administrative burdens or inefficiencies as a result of
administering multiple programs with similar objectives. Our review covered OPE for FYs 2009
through 2014 and two grantees (Berea and ENMUR) for FYs 2009 through 2011. In addition,
we performed audit work related to updates to OPE’s policies and procedures through
June 11, 2014.

To accomplish Audit Objective One, we—

      Reviewed OMB Circular A-123 concerning management’s responsibility for internal
       control.

      Reviewed OPE’s March 21, 2012 memorandum titled “Coordination with Other
       Programs for Disadvantaged Students.
Final Report
ED-OIG/A06N0002                                                                              Page 14 of 25

       Reviewed OPE’s Talent Search, Upward Bound, and GEAR UP monitoring site visit
        guides.

       Reviewed all program review reports provided by OPE in regard to the three programs
        (Talent Search, Upward Bound, and GEAR UP), to determine if OPE reviewed for
        duplication of services during its on-site program reviews.6

       Held discussions with OPE’s director of student service and directors of the Talent
        Search, Upward Bound, and GEAR UP programs.

       Reviewed the Department’s Handbook for the Discretionary Grant Process (dated
        January 26, 2009) to understand OPE’s monitoring process and risk factors for
        discretionary grants.

To accomplish Audit Objectives Two and Three, we—

       Reviewed the GAO report titled “Opportunities to Reduce Fragmentation, Overlap, and
        Duplication and Achieve Other Financial Benefits” (dated April 9, 2013) to determine
        GAO’s definition of overlap and duplication.

       Reviewed the duplication of services provisions from the HEA and from the
        corresponding regulations at 34 C.F.R. Parts 643, 645, and 694 (dated July 2011).

       Reviewed 34 C.F.R. § 75.253 (a) for guidance pertaining to the continuation of grant
        awards.

       Reviewed 34 C.F.R. § 74.53 (b) for guidance pertaining to record retention for FYs 2009
        through 2011.

       Reviewed Berea’s and ENMUR’s written policies and procedures for the Talent Search,
        Upward Bound, and GEAR UP programs.

       Reviewed Berea’s and ENMUR’s Talent Search, Upward Bound, and GEAR UP APRs
        (for FYs 2009 through 2011) to determine the total number of students reported as
        served.

       Interviewed Berea’s and ENMUR’s Talent Search, Upward Bound, and GEAR UP
        directors or assistant directors.




6
 OPE provided four program review reports. Two of the reviews were performed in 2008, one was performed in
2010, and one was performed in 2013. Of those four reviews, two addressed both Talent Search and Upward
Bound, one addressed only Upward Bound, and one addressed GEAR UP.
Final Report
ED-OIG/A06N0002                                                                     Page 15 of 25

      Performed an analysis of Berea and ENMUR APR data to match student names among
       programs to determine whether the same student was served by more than one program in
       the same year. We identified 61 students from Berea (for FYs 2009 through 2011) and
       126 students from ENMUR (for FY 2011) that had received services from at least two of
       the Talent Search, Upward Bound, and GEAR UP programs.

      Performed a 100 percent review of student records (61 student records at Berea and
       126student records at ENMUR) for students we identified as having received services
       from multiple programs. Specifically, for all students identified, we reviewed student
       records to determine if the same service was provided by multiple grants.

      Performed a limited comparison of reported NCES school identification numbers to a list
       of valid NCES school identification numbers selected from the CCD.

Sampling

To accomplish our audit objectives, we judgmentally selected the two grantees for site visits by
obtaining and analyzing data from the Federal Audit Clearinghouse (FAC) for FYs 2009 through
2011 combined. For that three-year period, we identified 304 grantees that expended funds from
two or more of the three grant programs, and determined that 86 of the 304 grantees expended
funds from all three grant programs. Because the FAC data for those 86 grantees included
information from state agencies with multiple sub-grantees, and because we wanted to identify
grant expenditures of specific grantees such as colleges and universities, we separated the state
agencies from the other grantees. Of the 86 entities, 27 were state agencies, and 59 were
individual grantees such as colleges and universities. We defined our universe as those
59 grantees, and then sorted the 59 grantees by expenditures (in descending order).

We determined to select one private school and one public school from the universe of
59 grantees. For the private school, we selected Berea; for the public school, we selected
ENMUR. Tables 4 and 5 below identify the expenditures for the two schools.

                         Table 4 – Berea Grant Expended Amounts
                Grant                  2009            2010                         2011
            Talent Search            $372,062        $307,261                     $367,903
            Upward Bound             $777,357        $644,452                     $768,248
              GEAR UP               $2,544,649      $2,456,350                   $2,098,951
                Total               $3,694,068      $3,408,063                   $3,235,102



                        Table 5 – ENMUR Grant Expended Amounts
                Grant                  2009         2010                            2011
            Talent Search            $713,496     $691,423                        $725,937
            Upward Bound             $601,556     $671,352                        $620,743
              GEAR UP               $1,794,323   $1,332,009                      $1,016,993
                Total               $3,109,375   $2,694,784                      $2,363,673
Final Report
ED-OIG/A06N0002                                                                        Page 16 of 25

Berea was one of only nine private entities, including seven private schools, in our universe of
59 grantees. The average amount of grant expenditures of those nine entities was $10,970,635,
and the total amount of grant expenditures for Berea was $10,337,233. We selected Berea
because its total amount of grant expenditures was the closest to the average amount of grant
expenditures of the nine entities.

ENMUR was one of fifty public entities in our universe of 59 grantees. ENMUR was in New
Mexico – a state selected because it had not been included in sampling performed for recent OIG
audits. We also determined that ENMUR was the only school in New Mexico that expended
funds from all three grants.

Our selection is not representative of the universe, and the results should not be applied to all
grantees.

Data Reliability

In performing our data reliability assessment, we did not receive computer-processed data from
OPE. Therefore, our reliability assessment pertained only to the two schools that we visited. For
Berea, the director of college access provided us ten spreadsheets with a listing of students to
support the total number of students that were reported as served in the 2009 through 2011 APRs
for all three grants. We assessed the reliability of that computer-processed data by tracing the
computer-processed data to student records. We determined that the data were sufficiently
reliable for the purposes of our audit.

For ENMUR, as discussed in Finding Number 2, the ENMUR GEAR UP director provided us
four spreadsheets to support the number of students the school reported as served in its FY 2009
and FY 2010 GEAR UP APRs. We reviewed the spreadsheets and determined that the four
spreadsheets were not sufficient to support either the total number of students the school reported
as served or the number of students the school reported as having received tutoring services.
Also, the ENMUR GEAR UP director stated that he was unable to provide an accurate or
supportable list for the students reported as served by the GEAR UP program. Therefore, we
determined that ENMUR’s GEAR UP data for FYs 2009 and 2010 were unreliable.

For FY 2011, in support of the total number of students reported by the three grants as having
been served, ENMUR grant directors provided us three spreadsheet listings of students. We
assessed the reliability of that computer-processed data by tracing the computer-processed data
to student records. We determined that the data were sufficiently reliable for the purposes of our
audit.

Internal Controls

We determined that control activities and monitoring standards were significant to our internal
controls audit objective. We performed procedures, for FYs 2009 through 2014, to identify and
understand OPE’s internal controls over evaluating grantees for duplication of services. Based
on our interviews with responsible OPE personnel, review of written policies and procedures,
and inspection of documents and records, we determined that OPE lacked adequate controls
relative to duplication of services. OPE’s control activities and monitoring are fully discussed in
Audit Finding Number 1.
Final Report
ED-OIG/A06N0002                                                                     Page 17 of 25


We conducted our audit work from July 2013 through January 2014. We visited OPE in
Washington, D.C.; Berea in Berea, Kentucky; and ENMUR in Roswell, New Mexico. We held
exit conferences with OPE officials on January 24, 2014, and with Berea and ENMUR officials
on January 22, 2014, to discuss the results of the audit. We also conducted a follow-up meeting
with OPE officials on June 4, 2014.

Our audit was performed in accordance with generally accepted government auditing standards
appropriate to the scope of the review described above. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit objectives.




                            ADMINISTRATIVE MATTERS


Corrective actions proposed (resolution phase) and implemented (closure phase) by your office
will be monitored and tracked through the Department’s Audit Accountability and Resolution
Tracking System. The Department’s policy requires that you develop a final corrective action
plan (CAP) for our review in the automated system within 30 calendar days of the issuance of
this report. The CAP should set forth the specific action items, and targeted completion dates,
necessary to implement final corrective actions on the findings and recommendations contained
in this final audit report. An electronic copy of this report has been provided to your Audit
Liaison Officer.

In accordance with the Inspector General Act of 1978, as amended, the OIG is required to report
to Congress twice a year on the audits that remain unresolved after six months from the date of
issuance.

Statements that managerial practices need improvements, as well as other conclusions and
recommendations in this report, represent the opinions of the OIG. Determinations of corrective
action to be taken will be made by the appropriate Department of Education officials.

In accordance with the Freedom of Information Act (5 U.S.C. § 552), reports issued by the OIG
are available to members of the press and general public to the extent information contained
therein is not subject to exemptions in the Act.

We appreciate the cooperation given us during this review. If you have any questions, please
call Daniel Schultz at 646-428-3888.
Final Report
ED-OIG/A06N0002                                                                    Page 18 of 25

                                           Sincerely,

                                           /s/

                                           Patrick J. Howard
                                           Assistant Inspector General for Audit

Electronic cc: Janie Funkhouser, Audit Liaison Officer, OPE

Attachments
Final Report
ED-OIG/A06N0002                                                              Page 19 of 25


                                    Attachment 1

         Acronyms, Abbreviations, and Short Forms Used in this Report

APR                Annual Performance Report

Berea              Berea College

CAP                Corrective Action Plan

CCD                Common Core of Data

C.F.R.             Code of Federal Regulations

Department         U.S. Department of Education

EDGAR              Education Department General Administrative Regulations

ENMUR              Eastern New Mexico University-Roswell

FY                 Fiscal Year

GAO                Government Accountability Office

GEAR UP            Gaining Early Awareness and Readiness for Undergraduate Programs

HEA                Higher Education Act of 1965, as amended

NCES               National Center for Education Statistics

OIG                Office of Inspector General

OPE                Office of Postsecondary Education

Secretary          Secretary of Education

TRIO               Federal TRIO Programs
Final Report
ED-OIG/A06N0002                                                                                                       Page 20 of 25

                              Attachment 2
    Office of Postsecondary Education’s Comments on the Draft Report



                                      UNITED STATES DEPARTM ENT OF EDUCATION
                                               OFFICE OF POSTSECONDARY EDUCATION

                                                                                            T ilE ASSISTANT SECRETARY




          MEMORAN DUM

          DATE:                     September 25, 2014

          TO:                       Daniel P. Schultz
                                    Regional Inspector General
                                    New York/Dallas Audit Region

          FROM:                     Lynn B. Mahaffiet\'£>. A· 1      ~~
                                                                 11 • .J
                                    Acting Assistant s~W.:t~ducation
                                    U.S. Department of Education
                                    1990 K Street, W, Room 8046
                                    Washington, DC 20006

          SUBJECT:                  Comments on Draft Audit Report--
                                    Office of Postsecondary Education Duplication of Effort with
                                    Discretionary Grants, Control Number ED-OIG/A06 0002


          We have reviewed the draft audit report "Office of Postsecondary Education Duplication of
          Effort with Discretionary Grants" (ED-OIG/A06 0002). The objectives of the audit were to
          determine whether: (I) the Office of Postsecondary Education's (OPE's) internal controls were
          adequate for evaluating grantees for duplication of services, (2) the Talent Search (TS), Upward
          Bound (UB), and Gaining Early Awareness and Readiness for Undergraduate Programs (GEAR
          UP) programs resulted in a duplication of services provided by selected grantees, and (3)
          selected grantees experienced administrative burdens or inefficiencies as a result of
          administering multiple programs with similar objectives.


          FINDING NO. I -OPE's Oversight Process Provides No Assurance That Grantees Do Not
          Duplicate Services

          OIG states that ·'OPE had not implemented adequate internal controls to provide assurance that
          grantees did not duplicate services. OPE did not have adequate internal controls to ensure
          duplication of services did not exist between the three grant programs and other existing Federal.
          state, and local early intervention programs, because it did not collect and evaluate information
          on duplication of services. As such, OPE did not fulfill HEA and Departmental requirements to
          ensure grantees do not duplicate the services al ready provided to a school or community:·


                                             1990 K ST. N.W.. \VASIIINGTOI'. DC 20006
                                                           ww\\.ed.gov

      T!Je Deparc ment of Educacion ·s mission is ro promoce srudent .1c1Jievement and prepamcion for global comperiti veness by
                                      foscering educarional excellence and ensuring equal access.
Final Report
ED-OIG/A06N0002                                                                                         Page 21 of 25




        The TS and UB program reg:.1lations require grantees to collaborate \Vith other programs serving
        similar populations ''to minimize the duplication of services.'' The draft audit report, however,
        docs not usc the term "minimize" and inconsistently describes the requirement. The title and
        discussion of finding No. I asserts that OPE needs to provide assurance that grantees do not
        duplicate services. The recommendations, hovvever, indicate that OPE should assess vvhcthcr
        grantees arc meeting their obligation to reduce duplication of services. Unlike the finding title
        and related discussion, the recommendations do not suggest that duplication is prohibited (see
        page 8 of the draft report). The draft audit report incorrectly suggests that grantees may not
        duplicate services; the regulati0ns use the term ''minimize" and they do not speciHcally bar
        duplication of services. Also. the draft audit report's use oft he term "'reduce" rather than the
        regulatory '"minimize'' suggests a misunderstanding of the regulatory requirement.


        RECOMMENDATION

         .1 Ensure that grantees provide information that would enable OPE to assess their efforts to
            coordinate, collaborate, and reduce duplication with other similar programs.

        RESPONSE

         .1 As currently stated. OPE disagrees \Vith the recommendation. 1f recommendation 1.1 is
            changed to retlect the regulatory standard that grantees minimize (rather than reduce)
            duplication, OPE would agree vv·ith the recommendation and has already taken steps to
            minimize duplication (as discussed below).

           The TS and UB programs are not subject to statutory or regulatory requirements to reduce
           duplication. Rather, the TS and UI3 program regulations require grantees to collaborate with
           other programs serving similar populations "to minimize the duplication of services."

           The term "minimize'· was chosen to reflect the Department's position that in ~ome instances
           duplication is unavoidable and may be appropriate. Please refer to the discussion in the
           preamble to the final regulations, 75 rR 65712,65727 (Oct. 26, 2010) in which the
           Department acknowledged the concerns expressed by commenters that the original proposed
           regulation regarding duplication was too restrictive. In describing the regulatory
           requirement, \VC urge the OIG to correctly cite the terminology.

           With the enactment of the Higher Education Opportunity Act of2008 (HEOA), mandatory
           negotiated rulemaking and the publication of draft and final regulations, OPE has taken and
           continues to take a number of actions to address minimizing duplication of services to those
           participating in TS, UB and other federally funded college access programs. Specifically:

              •   OPE engaged the grantee community in discussions regarding I IEOA requirements
                  through a negotiated rulemaking mandated by statute, and then publicized the new
                  requirement to minimize the duplication of 0ervi(:es to pmticipants. These efforts are
                  evident in the draft and final regulations issued forTS and UB. In particular, the
                  importance of minimizing the duplication of services was emphasized in the Notice of


                                                       2
Final Report
ED-OIG/A06N0002                                                                                                Page 22 of 25




                  Proposed Rulcmaking dated March 23, 2010, which proposed amendments to TRIO
                  and GEAR UP program regulations, as well as in final regulations issued on October
                  26,2010;

              •   To promote grantee compliance with the requirements, the TS and UB program
                  funding applicaticns \A/ere amended to address minimizing the duplication of services
                  to pmiicipants;

              •   Both the 201 l TS grant application and the 2012 UB grant application included an
                  assurance that required the certifying official of the applicant institution to state that
                  the project would collaborate with other Federal TRIO projects and GEAR UP to
                  minimize the duplication of services to participants;

              •   The annual perfor:nance reports (APRs) forTS and U3 were revised to require
                  reporting on the number of participants served by another federally funded college
                  access program. The revised APRs have heen in use for two years in TS and for one
                  year in UB; and

              •   During the CB APR clearance process, the requirement to minimize the duplication
                  of services was publicized in mc:etings with the grantee community and through 30-
                  and 60-day comment periods,

          To address OIG's finding for GEAR LP, OPE will update the GEAR UP APR to include the
          collection of data on parti·::ipant.s served by another federally funded access program.


       RECOMMENDATION

       1.2 Implement a process for OPE to assess whether or not grantees arc meeting their obligations
           to coordinate, collaborate, and reduce duplication of services for all three grant programs
           (Talent Search, Upward Bound, and GEAR UP).

       RESPO'ISE

        .3 As currently stated, OPE disagrees with the recommendation. If recommendation 1.2 is
           changed to reflect regulatory standard that grantees minimize (rather than reduce)
          duplication, OPE vvould agree with the recommendation and has already taken steps to
          minimize the duplication (as discussed below),

          As noted above, the TS and UB program regulations require grantees to collaborate with
          other programs serving similar populations ''to minimize the duplication of services." The
          term "reduce" rather than the regulatory "minimize" suggests a misunderstanding of the
          regulatory requirement and suggests that the statute requires no duplication. In describing
          the regulatory requirement, we urge the OIG to correctly cite the terminology in the
          regulations.



                                                        3
Final Report
ED-OIG/A06N0002                                                                                        Page 23 of 25




        To establish internal controls to appropriately monitor the requirements as they apply toTS, UB
        and GEAR UP, OPE will:

              •   Update site review guides forTS, UB and GEAR UP;

              •   Monitor TS and UB grantees to ensure they comply with tht: requirement to minimize the
                  duplication of services to participants;

           •      Update the OMB Circular A-133 Compliance Supplement tor the Federal TRIO
                  Programs Cluster by c.dding an additional audit requirement to review the issue of
                  participants served by another federally funded college access program: and

           •      Assess APR data on participants served by another federally funded college access
                  program to inform our monitoring of minimizing dupli~:ation.

           •      Develop a plan for oversight of grantee compliance with duplication of services
                  requirements. The plan will identify additional strategies for promoting grantee
                  compliance with these requirements.


       FINDING NO. 2- Eastern New Mexico University-Roswell (ENMUR) Did Not Maintain
       Sufficient Supporting Documentation to Assess Duplication for FYs 2009 and 2010 GEAR
       UP Program

       RECOMMENDATION

       2.1 Review E"'MUR's GEAR UP APR data for FY s 2009 and 2010, and determine whether
           funds should be recovered.


       RESPONSE

       2.1 OPE agrees with the recommendation. As the draft report states, in 201 I the grantee
           implemented a new software system that records a description of services provided,
           including the dates of service.

          Additionally. OPE staff followed-up with the Project Director and received a writlcn
          response citing other measures that have been put into place to ensure that ENMUR tracks
          adequate, reliable and complete documentation of services. Specifically, the Project Director
          reported taking the following quality assurance measures:

          •       In September 20 II as :he current grant began, ENMUR contracted with a nationally-
                  recognized education research and consulting firm to provide data management and
                  evaluation services;




                                                          4
Final Report
ED-OIG/A06N0002                                                                                         Page 24 of 25




           •   The project hired a full time Data Specialist to enter reliable and complete documentation
               of services provided t:nd to facilitate daily communications with the research and
               consulting firm mentioned above. This communication helps to ensure that the paper and
               electronic data maintained in the project's system transfers correctly to the research and
               consulting firm's records system; and

           •   The project contracted with an external evaluation team to review all project records
               annually for the rema:nder of the grant cycle and correct discrepancies and/or missing
               data.


       Finally, OPE staff reviewed ENMUR's GEAR L:P APR data for fY 2009 and FY 2010. ln
       addition, OPE requested and received an abundant amount supporting documentation from
       ENMUR's GEAR UP project for FY 2009 and FY 2010. The documentation provided for FY
       2009 indicates that the GEAR UP project purchased ACT pre-, mid- and post- diagnostic
       material for three target schools in November 2009. Documentation for the same tlscal year
       indicates that the ACT Instructors' salary and benefits were paid using GEAR UP funds for the
       three target schools. The grantee provided documentation for a college field trip and a
       community service teen court activity for FY 2009, including students' names, grade levels and
       the daks of the activity/service. ENMUR documented its contribution ro the scholarship
       component for FY 2009. The FY 2010 documentation for a number of events (e.g., a
       Scholarship Dinner, college tield trips) includes details such as dates, student and parent
       signatures, and student's grade level. Documentation for GEAR-UP professional development
       includes an itinerary and description of events and staff signatures. Based on this
       documentation, OPE's Acting Assistant Secretary determined that ENMUR has taken
       appropriate corrective actions and that OPE V/ill not seek to recover GEAR UP funds.


       OTHER MATTERS

       The OIG suggested several approaches that may be helpful in assessing grantee compliance with
       the requirement to minimize duplication of services toTS and UB participants and ensure that
       duplication docs not occur in GEAR UP projects. OIG suggested prc~screening applications
       submitted during grant competitions to determine if applicants will minimize the duplication of
       service to participants (TS and UB) or ensure that duplication does not occur (GEAR UP). The
       OIG also suggests that OPE take st<:ps to ensure tlwt grantees submit accurate National Center
       for Education Statistics Common Core of Data identification numbers. The OIG stated that
       identifying target schools with multiple projects may be helpful to assess instances of
       duplication. OPE will give fdl consideration to the OIG's suggestions as it further assesses,
       develops and retines its inten:al control processes.


       ADDITIONAL CONCERNS

       \Ve have identified several additional concerns and would appreciate OIG's comments and
       clarification.

                                                       5
Final Report
ED-OIG/A06N0002                                                                                          Page 25 of 25




       Berea College and ENMUR
       The draft audit report discusses the audits of Berea College and ENMUR. Tables presented
       indicate the five years audited (2009 - 20 13): the programs audited and the amounts of funds
       received by each program. We believe that it is important to note that the TS and CB
       requirement to minimize duplication of services to participants went into effect after the
       enactment of HEOJ\, with the pub!iu1tion of final regulations to implement the statute. The new
       regulatory requirements took c!Tcct tor new awards issued after the effective date of the I-IEOA
       and final program regulations. ForTS, that period began in 2011-2012. For Ufl, that period
       began in 2012-2013. With regard toTS. two of the years audited by the OIG (2011-2012 and
       2012-2013) were subject to the requirement to minimize the duplication of services. With regard
       to CB, one of the years audited (2012-2013) was sub1eet to this requirement. We ask that the
       OIG's concerns ret-lect the implementation ofiiEOA statutory and regulatory' requirements.

       Grantees
       The draft audit report states that ''\ve identified 304 grantees that expended funds from two or
       nwre grant programs, and det~rmined that 86 of the 304 grantees expended funds from all three
       grant programs. Of those 86 grantees. 27 were .state agencies with multiple sub-grantees, and 59
       were individual grantees such as colleges and universities." We ask that the OIG provide OPE
       with a list of the 27 state grantees participating in all three programs (TS, OB and GEAR OP)
       and describe hov.' OIG determined that these state grantees participated in TS, UB and GEAR
       UP.

       Thank you for the opportunity to respond to the draft audit report. If you have questions about
       any of our comments, please contact Linda Byrd-Johnson at 202-502-7729.

       cc:    Rich Rasa




                                                      6
